Nos. 19-431 & 19-454

 

 

IN THE

Supreme Court of the Anited States

LITTLE SISTERS OF THE
POOR SAINTS PETER AND PAUL HOME,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA

AND STATE OF NEW JERSEY,
Respondents.

DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, ET AL.,
Petitioner,

v.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,

Respondents.

On Writs Of Certiorari To The United States
Court Of Appeals For The Third Circuit

BRIEF OF PHYLLIS C. BORZI AND DANIEL J. MAGUIRE
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,159 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

 

Wilson-Epes Printing Co., Inc.
